No. 19-185

 

IN THE

Supreme Court of the United States

KALEV MUTOND, ET AL.,

Petitioners,
v.

DARRYL LEWIS

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
District of Columbia Circuit

SUPPLEMENTAL BRIEF OF RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,621 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 9, 2020.

 

Colin Casey Hoga:
Wilson-Epes Printing Co., Inc.
